                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                OFFICE OF INSPECTOR GENERAL




                            FINAL REPORT:

                 Administration of Payments Received
                Under the Help America Vote Act by the
                 Louisiana Secretary of State’s Election
                               Division



                   JUNE 18, 2003 THROUGH DECEMBER 31, 2009




Report No.
E-HP-LA-03-10
January 2011
                         U.S. ELECTION ASSISTANCE COMMISSION
                                 OFFICE OF INSPECTOR GENERAL
                                1201 New York Ave. NW - Suite 300
                                      Washington, DC 20005


                                                                                   January 28, 2011

Memorandum


To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help America
           Vote Act by the Louisiana Secretary of State’s Election Division
           (Assignment Number E-HP-LA-03-10)

       We contracted with the independent certified public accounting firm of Clifton Gunderson
LLP (Clifton Gunderson) to audit the administration of payments received under the Help America
Vote Act (HAVA) by the Louisiana Secretary of State’s Election Division (SOS). The contract
required that the audit be done in accordance with U.S. generally accepted government auditing
standards. Clifton Gunderson is responsible for the attached auditor’s report and the conclusions
expressed therein.

        In its audit of the SOS, Clifton Gunderson concluded that, except for strengthening internal
controls related to expenditures of HAVA funds to ensure state and federal guidelines are followed,
maintaining comprehensive equipment inventories, and improving the security over equipment, the
audit concluded that the SOS generally accounted for and expended HAVA funds in accordance
with the HAVA requirements and complied with the financial management requirements
established by the U.S. Election Assistance Commission. The SOS also complied with section 251
requirements.

        In its September 29, 2010 response to the draft report (Appendix A-1), the SOS generally
agreed with the report’s findings and recommendations, and provided corrective action. They
disputed the finding related to property security, which they believed to be adequate. Also, we have
included in the report the EAC response to the draft report (Appendix A-2), dated October 28, 2010,
which indicated that the EAC would work with the Louisiana SOS to ensure appropriate corrective
action.

       We would appreciate being kept informed of the actions taken on our recommendations as
we will track the status of their implementation. Please respond in writing to the finding and
recommendation included in this report by March 28, 2011. Your response should include
information on actions taken or planned, targeted completion dates, and titles of officials
responsible for implementation.
        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
                     
                 
     PERFORMANCE AUDIT REPORT


ADMINISTRATION OF PAYMENTS RECEIVED

             UNDER THE

       HELP AMERICA VOTE ACT

               BY THE

         STATE OF LOUISIANA


 June 18, 2003 Through December 31, 2009


           UNITED STATES

  ELECTION ASSISTANCE COMMISSION

                   
                   
                     
                     
       
                     




                   a1 
                                                  TABLE OF CONTENTS




                                                                                                                              PAGE


EXECUTIVE SUMMARY ............................................................................................................ 1


BACKGROUND.......................................................................................................................... 2


AUDIT OBJECTIVES ................................................................................................................. 2


SCOPE AND METHODOLOGY .................................................................................................4

AUDIT RESULTS ....................................................................................................................... 4


APPENDICES


Appendix A-1: Secretary of State Responses To

             Audit Results .................................................................................................... 8


Appendix A-2: U. S. Election Assistance Commission Response to Draft Report….……..11

Appendix B: Audit Methodology ............................................................................................ 12

                        U.S. Election Assistance Commission

        Performance Audit of the Administration of Payments Received Under the

                   Help America Vote Act by the State of Louisiana


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Louisiana
Secretary of State (SOS) for the period June 18, 2003 through December 31, 2009 to determine
whether the SOS used payments authorized by Sections 101, 102, and 251 of the Help America
Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable requirements;
accurately and properly accounted for program income and property purchased with HAVA
payments; and met HAVA requirements for Section 251 funds for an election fund and for a
matching contribution. We did not include a determination of whether the SOS and its
subgrantees met the requirements for maintenance of a base level of state outlays because the
Commission is reviewing its guidance on the applicability of the maintenance of a base level of
state outlays to the SOS’s subgrantees.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations 41 CFR 105-71.

   •	 Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87.

   •	 Submit detailed annual financial reports on the use of Title I and Title II payments.
We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Our audit concluded that the SOS generally accounted for and expended HAVA funds in
accordance with the requirements mentioned above for the period from June 18, 2003, through
December 31, 2009. We identified, however, the following findings and recommendations
needing SOS’s management attention:

   •	 Internal control relating to the expenditures of HAVA funds needs to be strengthened to
      ensure that federal and state guidelines are followed.
   •	 Controls over equipment purchased with HAVA funds need to be strengthened to ensure
      that all equipment is listed in the inventory records at both the state and parish level, the
      listed equipment has the correct identifying information, and the property is properly
      secured.



                                                1

We have included in this report as Appendix A-1, the SOS management’s formal responses on
September 29, 2010, to the findings and recommendations. Although we have included
management’s written responses to our findings and recommendations, such responses have
not been subjected to the audit procedures and, accordingly, we do not provide any form of
assurance on the appropriateness of the responses or the effectiveness of the corrective actions
described therein.

BACKGROUND

HAVA created the Commission to assist states and insular areas with the improvement of the
administration of federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:

    •	 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
       uniform and nondiscriminatory election technology and administration requirements,
       improving the administration of elections for federal office, educating voters, training
       election officials and poll workers, and developing a state plan for requirements
       payments.

    •	 Title I, Section 102 payments are available only for the replacement of punch card and
       lever action voting systems.

    •	 Title II, Section 251 requirements payments are for complying with Title III requirements
       for voting system equipment; and for addressing provisional voting, voting information,
       statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:

    •	 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
       activities [activities for which requirements payments are made].” [Section 253(b)(5)].

    •	 “Maintain the expenditures of the state for activities funded by the [requirements] payment
       at a level that is not less than the level of such expenditures maintained by the state for
       the fiscal year ending prior to November 2000.” [Section 254 (a)(7)].

    •	 Establish an election fund for amounts appropriated by the state “for carrying out the
       activities for which the requirements payment is made,” for the Federal requirements
       payments received, for “such other amounts as may be appropriated under law,” and for
       “interest earned on deposits of the fund.” [Section 254 (b)(1)].

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the Louisiana SOS:

    1.	 Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
        HAVA and applicable requirements;

    2.	 Accurately and properly accounted for property purchased with HAVA payments and for
        program income;



                                                 2

    3.	 Met HAVA requirements for Section 251 funds for an election fund and for a matching
        contribution. We did not determine whether the SOS met the requirement for
        maintenance of a base level of state outlays, because the Commission is reviewing its
        guidance on the applicability of the maintenance of a base level of state outlays to
        subgrantees of the SOS.
In addition, to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1.	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
        Agreements with State and Local Governments (also known as the “Common Rule”) as
        published in the Code of Federal Regulations at 41 CFR 105-71.

    2.	 Expend payments in accordance with cost principles for establishing the allowance or
        disallowance of certain items of cost for federal participation issued by the OMB.
                                                                                                           1
    3.	 Submit detailed annual financial reports on the use of Title I and Title II payments.




1  EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds.
Through December 31, 2009, for Sections 101 and 102, reports were due on February 28 for the activities of the
previous calendar year, and, for Section 251, reports were due by March 30 for the activities of the previous fiscal
year ending on September 30. Beginning in calendar year 2009, all reports will be effective as of September 30,
2009 for the fiscal year ended that date and will be due by December 31, and 20XX.




                                                         3

 SCOPE AND METHODOLOGY

 We audited the HAVA funds received and disbursed by the SOS from June 18, 2003, through
 December 31, 2009, (79-month period) as shown in the following table:
                             FUNDS RECEIVED
TYPE OF         EAC         PROGRAM   STATE          INTEREST        TOTAL     FUNDS             DATA

PAYMENT       PAYMENT        INCOME   MATCH           EARNED       AVAILABLE DISBURSED           AS OF


Section 101    $4,911,421      $     0 $        0      $903,743      $5,815,164    $1,768,796   12/31/2009
Section 102     7,351,684            0          0        193,790      7,545,474     7,545,473   12/31/2009
Section 251    36,788,515            0  5,647,758      3,526,132     45,962,405    41,359,543   12/31/2009
   Total      $49,051,620      $     0 $5,647,758     $4,623,665    $59,323,043   $50,673,813   12/31/2009


 Our audit methodology is set forth in Appendix B.

 AUDIT RESULTS

 We conducted this performance audit in accordance with Generally Accepted Government

 Auditing Standards. Those standards require that we plan and perform the audit to obtain

 sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

 based on our audit objectives. We believe that the evidence obtained provides a reasonable

 basis for our findings and conclusions based on the audit objectives. Because of inherent

 limitations, a study and evaluation made for the limited purposes of our review would not

 necessarily disclose all weaknesses in administering HAVA payments.


 Our audit concluded that the SOS generally accounted for and expended HAVA funds in

 accordance with the requirements mentioned above. We identified, however, findings and

 recommendations needing SOS’s management attention, as described below. The SOS has

 taken action on or is working to resolve the exceptions described below as set forth in Appendix

 A-1:


 I.	 Internal Control Deficiencies

 Several internal controls over HAVA expenditures were designed improperly or were ineffective.

 Although the costs identified were allowable under the HAVA program, the state is not

 complying with its policies and procedures. We noted the following control weaknesses related

 to expenditures:

     � Fuel was purchased for a rental van using the pre-paid fuel option rather than using a
        fuel card or state run pumps, without prior approval in the form of a purchase request.
     � Changes to the timesheets were not initialed by the employee or supervisor.
        Additionally, the procedures for changing time already reported do not provide proper cut
        off between pay periods.
     � One employee’s travel expenditure authorization form was not dated.




                                                4

Recommendations:

We recommend that the SOS take the following actions:
  1) Ensure purchasing guidelines for fuel are followed.
  2) Require employees whose timesheets are changed to initial the correction and for
      supervisor to approve the change.
  3) Ensure that the state follows its Travel Policy and Procurement Procedures in approving
      travel authorizations.

SOS’s Response:

FUEL PURCHASES:
In accordance with the Louisiana Travel Guide pre-paid fuel options are only allowed when the
traveler can document that the pre-purchased amount was necessary and the amount charged
by the rental company is reasonable in relation to local gasoline cost. The NFR cites one
instance in which an employee used the pre-paid fuel option in violation of state travel
regulations.

On June 8, 2010, the Department of State emailed to all employees the Procedures for Renting

Vehicles advising them of supplemental procedures that must be followed when procuring

gasoline for rented motor vehicles. In addition, these procedures were placed on the

Department’s intranet available to all employees. These procedures require that temporary fuel

cards be obtained from the Department’s Fleet Manager to be used when purchasing fuel for

rented motor vehicle.


EMPLOYEE TIMESHEETS:

The Department’s time and attendance procedures have been revised to require that all

changes to time and attendance sheets be initialed by both the employee and the supervisor. All

employees and timekeepers have been notified of the requirement.


EMPLOYEE TRAVEL EXPENDITURE AUTHORIZATION:

The Department’s procedures require dates on all travel authorization forms. All employees

have been reminded of the requirements for completing travel authorizations and the

Accounting staff has been instructed to ensure that travel authorization forms include all

required information.


II.	 Property Management

At each of the six parishes we visited, we selected a random sample of the HAVA funded
equipment to verify its existence. At four parishes we were unable to locate all of items in our
test groups as follows:

 •	 One laptop computer and one AVC Touchscreen machine were not located.
 •	 Seven items could not be located, because the inventory of equipment items at
    headquarters does not have unique location codes to identify the specific department or
    location within headquarters.
 •	 One AVC Touchscreen machine was not located in the warehouse and was later found in
    another parish without a record of move sheet.
 •	 One laptop computer was not located in a Registrar of Voters office.




                                               5

Further, we were informed that two stolen HAVA funded laptop computers were reported to the
police as required; however, we were not provided any police reports to support the theft. The
stolen property was properly removed from the inventory listing, and the SOS Election Office
replaced the stolen laptops with state purchased laptop computers, which were not included on
the inventory listing.
The SOS’ office staff explained that our testing was taking place during an election cycle when
machines are frequently moved around from parish to parish. Since the inventory system is
maintained centrally in Baton Rouge by the SOS, the move sheets which indicate the current
location of the items had not been entered into the system. CG also discovered that some
location codes are not unique to one site. A location code may encompass multiple buildings or
rooms within a site. For example, East Baton Rouge includes the central office, which has
multiple offices/locations at the site. Some of difficulty finding equipment may have been due to
a location code not being specific enough to a building or room at a site.
In our visits, we examined physical access to the warehouses. Overall, we noted that security
at the warehouses is minimal. Access doors are locked and bolted with only warehouse
personnel having access. However, there are no standard security procedures consistently
practiced among the parishes such as visitor logs, cameras or alarms.
The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments 41 CFR § 105-71.132, referred to as the Common Rule, states:
       (d)(1)    property records must be maintained that include a description of the property, a
                serial number or other identification number, the source of property, who holds
                the title, the acquisition date, cost of the property, percentage of Federal
                participation in the cost of the property, the location, use and condition of the
                property, and any ultimate disposition data including the date of disposal and
                sale price of the property.
        (f)     in the event a grantee or subgrantee is provided federally-owned equipment:

                (2) Grantees or subgrantees will manage the equipment in accordance with
                Federal agency rules and procedures, and submit an annual inventory listing.
        (d)((3) a control system must be developed to ensure adequate safeguards to prevent
                loss, damage, or theft of the property. Any loss damage or theft shall be
                investigated.

Recommendations:

We recommend that the SOS take the following actions:

   1)	 Require staff of the SOS to conduct a periodic physical inventory (quarterly, bi-annually
       or annually, whichever is appropriate) of all HAVA-funded equipment in the possession
       of the parishes and use the documented results to correct its property records.
   2) Add additional or unique identifying location codes for all areas within a parish.
   3) Ensure warehouse staff is aware and trained on documentation requirements for moving
       equipment.
   4) Ensure that the property management records of the parishes have at least the minimum
       information required in the Common Rule.
   5) Strengthen security at the warehouses.



                                                6

SOS’s Response:

The SOS was in general agreement with the recommendations and provided corrective actions
as noted below and in the response in Appendix A-1. However, they disputed the finding and
recommendation regarding the security issues.

INVENTORY LISTINGS:

•	 Additional location codes will be added to the inventory listings to enable better tracking of
   equipment Inventory.
•	 Property records have been adjusted to properly account for equipment that was relocated,
   either within the parishes or between parishes.
•	 The replacement laptop computers were added to the inventory listing.
•	 Clerical errors noted in the inventory observation have been corrected.

EQUIPMENT SECURITY

The SOS disputed the recommendation regarding the security issues, and believes that their
procedures are adequate. They provided a memorandum regarding the steps being taken to
improve overall security of the voting equipment in the warehouse, which is included in
Appendix A-1.

Auditor Response:

Since most of the issues locating equipment dealt with incorrect location codes or timing of
move sheet entries, we encourage the SOS to continue with the plan to add and utilize
additional or unique identifying location codes and update Protégé timely whenever equipment
is moved. Although the memorandum discussing security practices states that some
warehouses have tight security, our observations at the warehouses we visited did not reflect
these measures. We encourage the SOS to work toward implementing tighter security controls
at all of the warehouses as discussed in the memorandum.

                              ****************************************

We provided a draft of our report to the appropriate individuals of the Louisiana SOS and the
Commission. We considered any comments received prior to finalizing this report.

The draft report was provided to the Executive Director of the EAC for review and comment.
The EAC generally agreed with the report’s reviews and recommendations, and stated that they
would work with the SOS to ensure corrective action. The EAC’s complete response is included
as Appendix A-2.

CG performed its work between January 5, 2010 and January 29, 2010.

a1 
Calverton, Maryland
June 18, 2010




                                                 7

                                                                                     Appendix A-1




                         LOUISIANA DEPARTMENT OF STATE

                                    RESPONSE TO

                      U. S. ELECTION ASSISTANCE COMMISSION

                               HELP AMERICA VOTE ACT

                             PERFORMANCE AUDIT REPORT



                          INTERNAL CONTROL DEFICIENCIES


FUEL PURCHASES:

The Department of State has developed “Vehicle Leasing Procedures” which include
supplemental procedures that must be followed when leasing a vehicle. These procedures
include guidelines for procuring gasoline for leased vehicles. The Department placed these
procedures on the Department’s intranet site (LASOSNet) which is available to all Department
employees. In addition, the Department emailed copies of these procedures to all employees on
June 8, 2010. These procedures require that temporary fuel cards be obtained from the
Department’s Fleet Manager and will be used when purchasing fuel for a leased vehicle.

EMPLOYEE TIMESHEETS:

The Department’s time and attendance procedures for employees paid with federal funds were
revised to require that both the employee and the supervisor initial all changes to time and
attendance sheets. Also, timekeepers were notified of this requirement.

EMPLOYEE TRAVEL EXPENDITURE AUTHORIZATION:

The Department’s procedures require dates on all travel authorization forms. All employees
were reminded of the requirements for completing travel authorizations and the Accounting staff
has been instructed to ensure that travel authorization forms include all required information.

                               PROPERTY MANAGEMENT

ANNUAL PHYSICAL INVENTORY:

The State of Louisiana requires the Department of State to conduct an annual physical inventory
of all moveable property valued at $1,000 or more. As such, the Department’s property manager
visits each location every year to conduct inventory. The last annual property inventory was
completed and certified on May 28, 2010. The Department’s Property Manager also periodically
conducts inventory checks of sensitive equipment listed on the internal property database and has
recently completed an inventory of all federally funded equipment.

PROPERTY RECORDS DOCUMENTATION:

Property Records

In the State of Louisiana, the Louisiana Property Assistance Agency (LPAA) is responsible for
the control and disposition of all state moveable property. According to LAC 34:307(A), all
items of moveable property having an “original” acquisition cost, when first purchased by the

                                                8
State of Louisiana, of $1,000 or more must be placed on the statewide asset management system,
Protégé.

All moveable property listed in Protégé as an active asset is reported as existing equipment and is
in working order. Immediately upon notification that equipment is no longer in good working
order or if equipment has been replaced or disposed of, the property manager is required to
remove such equipment from the active assets listing. As such, by virtue of equipment being
reported as an active asset, its condition is recorded as in good working order. Further, federally
funded equipment is flagged in Protégé as a federal asset to be used only for qualifying activities.
Thus, the requirement to report the use and condition of equipment is met via the appropriate use
of the state’s asset management system.

With regard to specific location, the Department of State did not have specific location codes for
clerk of court and registrar of voters offices that had more than one office but rather, equipment
was assigned to the main office. During the Department’s annual inventory certification, each
site is visited and all equipment in every location is inventoried. However, based on the audit
recommendations, the Department is establishing new location codes for each branch office and
all equipment, which is permanently designated to a branch office, will be reported under the
appropriate location code. Additional location codes will also be established to provide more
specific and detailed locations for the various sections within the main office. These changes
will enable better tracking of equipment inventory.

Inventory Observations and Discrepancies:

All Department employees have been given move/transfer sheets and trained on documentation
requirements. However, based on the auditor’s recommendation, all employees have been
reminded of their responsibilities relating to moving and transferring equipment.
Regarding the inventory discrepancies cited in the audit report, it should be noted that the HAVA
inventory list was prepared in advance of the actual inventory inspection dates for the auditors to
allow them time to review the listing and select their sample prior to visiting each location.
Because the audit was taking place during a busy election cycle, equipment was being moved as
necessary to meet election-related demands. These moves were documented on Departmental
move sheets and were then recorded in Maintenance Connection that generates an asset change
report to the property manager each Monday. The property manager then records changes in
Protégé. Because of timing issues involved with recording changes in Protégé, the HAVA
inventory listing did not necessarily reflect the most updated information in cases where asset
locations changed after the listing was printed. In such instances, move sheets were provided to
the auditors to document the exact current location of the inventory items and, in some cases,
equipment was brought into the office for inspection prior to the end of the audit. In addition,
clerical errors in location coding were made and have since been corrected.

Stolen Laptops

The Department of State did report the two incidents of stolen equipment to the police and
obtained police reports on both thefts. In both instances, the Department filed a claim with the
State Office of Risk Management and insurance proceeds were used to purchase replacement
laptops. These laptops have been added to the federal equipment listing. The police reports


                                               9
were on file with the Department’s Loss Prevention Officer and were provided to the auditors
after they left the audit site.

SECURITY:

The warehouse staff controls access to the voting machine warehouse. We do not have “visitors”
to these locations. However, during election cycles, we do have clerk of court officials, parish
board of election supervisor members, and candidate representatives that may be on site for
machine inspections prior to an election, sealing of the machines prior to an election, and
unsealing of the voting machines and the final tabulation of results. We use a “visitor control
log” at each site for access control to identify these officials and visitors.

The Department leases all voting machine warehouses in Louisiana. In 2008, the Department
developed a monitored burglary and fire alarm security system standard for the warehouse bid
application; therefore, all future voting machine warehouse leases will require monitored
burglary and fire alarm security systems. We now have six parishes with burglary and fire alarm
security systems in the voting machine warehouses that are monitored 24 hours a day.

We also worked with the Elections Division on a new model layout or footprint for warehouses
that made them much more resistant to attack. We developed guidelines for locking hardware to
better secure the sites and to create a master locking system for better key control. At some sites,
employees installed interior barriers and bars for doors to make them more resistant to attack.




                                                10
                                                                           Appendix A-2




                    EAC RESPONSE TO THE DRAFT AUDIT:
                    OIG Performance Audit Report on the Administration of
                    Payments Received Under the Help America Vote Act by the
                    State of Louisiana, for the Period June 18, 2003 Through
                    December 31, 2009.

October 28, 2010


MEMORANDUM


To:          Curtis Crider
             Inspector General

From:        Thomas Wilkey
             Executive Director

Subject:     Draft Performance Audit Report – “Administration of Payments
             Received Under the Help America Vote Act by the State of
             Louisiana”.

Thank you for this opportunity to review and respond to the draft audit report for
Louisiana.

The Election Assistance Commission (EAC) generally concurs with the results of
the review and recommendations. The EAC will work with the Louisiana
Secretary of State to ensure appropriate corrective action.




                                          11
                                                                                       Appendix B
                                    AUDIT METHODOLOGY


Our audit methodology included:

•	 Assessing audit risk and significance within the context of the audit objectives.

•	 Obtaining an understanding of internal control that is significant to the administration of the
   HAVA funds.

•	 Understanding relevant information systems controls as applicable.

•	 Identifying sources of evidence and the amount and type of evidence required.

•	 Determining whether other auditors have conducted, or are conducting, audits of the
   program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•	 Interviewed appropriate SOS employees about the organization and operations of the HAVA
   program.

•	 Reviewed prior single audit report and other reviews related to the state’s financial
   management systems and the HAVA program for the last 2 years.

•	 Reviewed policies, procedures and regulations for the SOS’s management and accounting
   systems as they relate to the administration of HAVA programs.

•	 Analyzed the inventory lists of equipment purchased with HAVA funds.

•	 Tested major purchases and supporting documentation.

•	 Tested randomly sampled payments made with the HAVA funds.

•	 Verified support for reimbursements to local governments (counties, cities, and
   municipalities).

•	 Reviewed certain state laws that impacted the election fund.

•	 Examined appropriations and expenditure reports for state funds used to maintain the level
   of expenses for elections at least equal to the amount expended in fiscal year 2000 and to
   meet the five percent matching requirement for section 251 requirements payments.

•	 Evaluated compliance with the requirements for accumulating financial information reported
   to the Commission on the Financial Status Reports, Form SF-269, accounting for property,
   purchasing HAVA related goods and services, and accounting for salaries.

•	 Verified the establishment and maintenance of an election fund.



                                                12

•	 Conducted site visits of selected parishes to perform the following:

     �   Observe equipment purchased with HAVA funds for proper accounting and
         safeguarding
     �   Ensure compliance with HAVA and the Uniform Administrative Requirements for
         Grants and Cooperative Agreement with State and Local Governments, 41 CFR § 105­
         71.
                                                                                         
 




                                               13

                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
